   EQUIPMENT PROCUREMENT FOR THE NATIONAL GUARD
                AND RESERVE FORCES

Report No. D-2001-047                     February 7, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at: www.dodig.osd.mil/audit/reports/ or contact the Secondary
  Reports Distribution Unit of the Audit Followup and Technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms

ARNG                  Army National Guard
NGREA                 National Guard and Reserve Equipment Appropriation
P-1R                  Procurement Programs-Reserve Components procurement
                         document
USAR                  United States Army Reserve
                       Office of the Inspector General, DoD
Report No. D-2001-047                                                 February 7, 2001
  (Project No. D2000AB-0232)

 Equipment Procurement for the National Guard and Reserve Forces


                               Executive Summary

Introduction. The Deputy Assistant Secretary of Defense for Reserve Affairs
(Materiel and Facilities) requested an audit to determine whether the funds that
Congress appropriated to the Reserve Components from FY 1996 through FY 2000
were being used as intended. This report addresses that request.

Equipment procurements for the Reserve Components are funded either in the
procurement appropriations of the Military Departments or in a separate National
Guard and Reserve Equipment Appropriation. The Procurement Programs-Reserve
Components exhibit is submitted with the biennial budget submission and is part of the
Procurement Program’s congressional budget justification package. The Procurement
Programs-Reserve Components exhibit reflects the Active Component’s estimate for
those funds that will be used to procure and modify equipment for the Reserve
Components. The Procurement Programs-Reserve Components exhibit also includes
the projected quantities of new procurement items for the Reserve Component out of
the Active Components’ Procurement Appropriations. Appropriated amounts for
equipment procurement for the Reserve Components from FY 1996 through FY 2000
totaled $7.6 billion for 125 systems. We reviewed $4 billion representing 31 systems.

Objectives. Our overall audit objective was to determine the use of funds budgeted for
Reserve Component procurement. Specifically, the audit determined whether the funds
appropriated to the Active Components to procure equipment for their Reserve
Components were used for that purpose and whether the equipment was delivered in
accordance with approved acquisition plans.

Results. Funds earmarked in budget justification exhibits for procurement for the
Reserve Components were generally used for that purpose. For 29 systems,
$3.6 billion was expended from FY 1996 through FY 2000 to support Reserve
Components. For the remaining two systems, $328 million in funds was used to
support the Active Forces because of revised priorities. However, for the two systems,
the requirements simply were deferred to a future period with reasonable expectations
of funds being available at that time. The Army had legal authority to make those
adjustments.

Management Comments. We provided a draft of this report on November 24, 2000.
Although no written comments were required, the Acting Assistant Secretary of
Defense (Reserve Affairs) stated that our assertion that the Services are complying with
the programmed and planned equipment support of the National Guard and Reserve
Components is most helpful. However, the Assistant Secretary found it troubling that
the Services’ had difficulty in providing execution data for the Reserve Component
procurements in the Active Component accounts. In addition, the Assistant Secretary
stated that when the Congress appropriates funds in the President’s budget for
equipment and modifications for the National Guard and Reserve Components, it is the
Services’ responsibility to ensure that the equipment gets to the intended user. The
Assistant Secretary further stated that his office would continue to work with the
Services to ensure that an account of execution, expenditures, and deliveries of Reserve
Component equipment is readily available. Also, his office will closely monitor the
Services execution of the Reserve Component equipping programs.




                                           ii
Table of Contents

Executive Summary                                                       i


Introduction
     Background                                                         1
     Objectives                                                         1

Finding
     Procurement and Modification of Equipment for Reserve Components   2

Appendixes
     A. Audit Process                                                   5
          Scope                                                         5
          Methodology                                                   5
          Management Control Program Review                             6
          Prior Coverage                                                6
     B. Systems Reviewed                                                7
     C. Report Distribution                                             8


Management Comments
     Assistant Secretary of Defense (Reserve Affairs)                   9
Background

The Deputy Assistant Secretary of Defense for Reserve Affairs (Materiel and Facilities)
requested an audit to determine whether the funds that Congress appropriated to the
Reserve Components from FY 1996 through FY 2000 were used as intended.

The Reserve Components receive new equipment through the National Guard Reserve
Equipment Appropriation and by procurements identified in Active procurement
accounts of the Services. Amounts appropriated in the former accounts from FYs 1996
through 2000 totaled $7.6 billion, which represented funding for 125 systems. The
Procurement Programs-Reserve Components budget justification exhibit (P-1R) is
submitted with the biennial budget submission and is part of the Procurement Programs
justification package. The P-1R identifies both item quantities and estimated costs for
equipment programmed to be procured and modified for the Reserve Components.

The P-1R is an extract from the official financial database that provides Service
summaries and all procurement line item breakouts for each Reserve Component. The
P-1R addresses five appropriations for each Reserve Component. The appropriations
are Aircraft Procurement, Missile Procurement, Procurement of Weapons and Tracked
Combat Vehicles, Procurement of Ammunition, and Other Procurement.


Objectives

The overall audit objective was to determine the use of funds budgeted for Reserve
Component procurement. Specifically, the audit determined whether the funds
appropriated to procure equipment for the National Guard and Reserve Forces in the
Military Department procurement accounts were used for that purpose and whether the
equipment was delivered in accordance with approved acquisition plans. We did not
review specific equipment purchases funded in the National Guard and Reserve
Equipment Appropriation.




                                           1
              Procurement and Modification of Equipment
              for Reserve Components
              Funds earmarked in budget justification exhibits for procurement for the
              Reserve Components were generally used for that purpose. For
              29 systems, $3.6 billion was expended from FY 1996 through FY 2000
              to support Reserve Components. For the remaining two systems,
              $328 million in funds was used to support the Active Forces because of
              revised priorities. However, for the two systems, the requirements
              simply were deferred to a future period with reasonable expectations of
              funds being available at that time. The Army had legal authority to
              make those adjustments.

Army National Guard Systems

We reviewed 14 systems planned for delivery to the Army National Guard (ARNG) and
Army Reserve (USAR) Components from FY 1996 through FY 2000. We selected
those systems because they are major dollar items and represent a large percentage of
each of the procurement sub-appropriations.

Army Aircraft Procurement. The ARNG received 41 UH-60 Black Hawk
helicopters totaling $385 million programmed from FY 1996 through FY 2000.

Because of priority changes within the Active Component, the funds for the delivery of
Kiowa helicopters to the ARNG were moved to FY 2003. The Kiowa helicopters were
originally estimated for delivery from FY 1996 through FY 1998 at a cost of
$272 million.

Missile Procurement. The ARNG received the Avenger Air Defense System
equipment costing $69 million, as scheduled, from FY 1999 through FY 2000.
Avenger systems purchased in FY 1997 for $56 million that were originally projected
to be distributed to the ARNG were instead sent to the Active Component of the Army
because of priority changes. ARNG officials advised us that the funds, which were
originally program for use in FY 1997, were moved to FY 2006.

The ARNG received the Multiple Launch Rocket System and associated ancillary
equipment as scheduled for FY 1997, FY 1999, and FY 2000 for a total of
$116 million.

Weapons and Tracked Combat Vehicles. The Field Artillery Ammunition Support
Vehicle and the Paladin were listed in the P-1R as two separate line items, but the
systems have always been fielded together. The ARNG provided documentation that
showed both systems for FY 1997 and FY 1998 were received at a cost of
$291.8 million.




                                          2
________________________________________________________________________


In FY 1998, a total of $83 million was appropriated for the Bradley. The ARNG
provided documentation that those funds were being used to upgrade the Bradley at a
cost of approximately $1.25 million for each vehicle. The funds were used to upgrade
two battalions in South Carolina and North Carolina.

Other Procurements--Tactical and Support Vehicles. The ARNG received 738 of
857 Heavy Equipment Transporter System, Palletized Load System, and Heavy
Expanded Mobility Tactical Trucks that were scheduled for delivery. The P-1R
showed that 345 vehicles were to be purchased in FY 1999, and 512 vehicles were to
be purchased in FY 2000, for a total of $177.5 million. The ARNG received
245 vehicles in FY 1998 and 493 vehicles in FY 1999 through FY 2000, with the
remaining 119 scheduled for delivery in FY 2001.

In FY 1999, 305 Truck, Tractor, and Line Haul (M915) systems were scheduled for
delivery costing $41 million, and in FY 2000, 61 were scheduled for delivery at a cost
of $8.9 million. The ARNG representative advised us that because of delays in testing,
deliveries were later than projected. Production began in September 2000 and
deliveries are scheduled for FY 2001.

Communications and Electronics Equipment. The ARNG received 29,636 Single
Channel Ground-Air Radio Systems as projected from FY 1996 through FY 2000
costing $273.4 million.

A total of $298 million from FY 1996 through FY 2000 was spent for the Reserve
Component Automation System. The $298 million included $177 million for hardware
and $121 million for software and related services.

A total of $109.3 million was spent for 54 Sentinel radar systems from FY 1996
through FY 2000.

Army Reserve Systems

We reviewed five USAR systems. The total funding for the five systems was
$333 million from FY 1996 through FY 2000.

A total of $104 million was spent for 11,346 Single Channel Ground-Air Radio
Systems programmed for FY 1996 and FY 1997.

A total of $158 million was spent for the Reserve Component Automation System.

In addition, $41 million was spent in FY 2000 for 283 Truck, Tractor, and Line Haul
(M915) systems. No trucks were delivered in FY 2000 because of delays in testing and
deliveries are scheduled for FY 2001.

In FY 1999, $13.8 million was spent for 48 Truck, Palletized Load Systems. The
USAR received 37 vehicles in FY 2000 and the remaining 11 were scheduled for
delivery in FY 2001.

In FY 2000, $16 million was spent for 24 Heavy Equipment Transporter Systems. The
trucks were delivered in the last quarter of FY 2000 and early FY 2001.


                                          3
Navy and Marine Corps Reserves

The Navy spent $12 million in FY 1996, $12 million in FY 1997, $56 million in
FY 1998, $42 million in FY 1999, and $86 million in FY 2000 for Naval Reserve
equipment. Those funds were for aircraft procurement and modifications and
miscellaneous systems procurement. Naval Reserve officials provided documentation
showing that the procurements and modifications had been completed.

The Marine Corps spent $59 million in FY 1996, $30 million in FY 1997, $26 million
in 1998, $39 million in FY 1999 and $57 million in FY 2000 for Marine Corps Reserve
equipment. Marine Corps Reserve officials provided documentation showing that all
procurements were made or would be delivered with the funding.

Air Force Reserve and Air National Guard Aircraft Modifications

We reviewed the aircraft procurement appropriations for six selected air systems and
system modifications for the Air Force Reserve and Air National Guard from FY 1996
through FY 2000. Air Force Reserve and Air National Guard officials provided
documentation showing that the funds were sent to the program managers and the
modifications were completed. The aircraft systems and the amount of funding for the
Air Force Reserve were the A-10 ($23.3 million), F-16 ($43.9 million), C-5
($93.7 million), C-141 ($154.5 million), C-130 ($109 million), and C-135
($144.7 million).

The aircraft systems and the amount of funding for the Air National Guard were the
A-10 ($47.1 million), F-16 ($217.9 million), C-5 ($35.8 million), C-141
($63.1 million), C-130 ($175.7 million), and C-135 ($346.9 million).


Management Flexibility
Quantities shown in the P-1R exhibit for each year of the procurement do not
necessarily reflect how those quantities will be distributed. Fiscal resources,
programmatic, and priority changes subsequent to the published date of the exhibit may
ultimately revise some of the projections in the P-1R. The Services have the legal
authority to make such adjustments to delivery sequences.

Summary

For 29 systems reviewed, we determined that $3.6 billion was expended in support of
Reserve Components from FY 1996 through FY 2000. The Army reprioritized $328
million, originally programmed for the ARNG for Kiowa Warrior helicopters and
Avenger Systems in FY 1996 through FY 2000, to the Active component. The Army
now plans to provide this equipment to the ARNG in the FY 2003 to FY 2006
timeframe.




                                          4
________________________________________________________________________

Appendix A. Audit Process

Scope and Methodology

Work Performed. We reviewed the Active Component Procurement Appropriation
from the P-1R documents from FY 1996 through FY 2000 to ensure that equipment
was provided to the National Guard and Reserve Forces. We reviewed the funds
distribution process from the Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics to the final uses of the funds at the specific program offices.
We reviewed documents and guidance that were pertinent to the fielding or transfer of
equipment. We interviewed military and civilian personnel from the different Services.
We also interviewed cognizant personnel within various offices of the Secretary of
Defense.

Limitations to Audit Scope. We did not visit any Reserve Component units.

DoD-Wide Corporate Level Government Performance and Results Act Coverage.
In response to the Government Performance and Results Act, the Secretary of Defense
annually establishes DoD-wide corporate level goals, subordinate performance goals,
and performance measures. This report pertains to achievement of the following goal,
subordinate performance goal, and performance measure.

FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain future by
pursuing a focused modernization effort that maintains U.S. qualitative superiority in
key warfighting capabilities. Transform the force by exploiting the Revolution in
Military Affairs, and reengineer the Department to achieve a 21st century
infrastructure. (01-DoD-2) FY 2001 Subordinate Performance Goal 2.2: Transform
U.S. military forces for the future. (01-DoD-2.2) FY 2001 Performance
Measure 2.2.1: Annual Procurement Spending (01-DoD-2.2.1).

DoD Functional Area Reform Goals. DoD did not establish performance
improvement reform objectives and goals for this functional area.

High-Risk Area. The General Accounting Office has identified several high-risk areas
in DoD. This report provides indirect coverage of the Defense Weapons System
Acquisition high-risk area.

Use of Computer-Processed Data. We did not use computer-processed data to
perform this audit.

Audit Type, Dates, and Standards. This economy and efficiency audit was
performed from July 2000 through October 2000 in accordance with auditing standards
issued by the Comptroller General of the United States, as implemented by the
Inspector General, DoD. Accordingly, we included tests of management controls
considered necessary.

Contacts During the Audit. We visited or contacted individuals and organizations
within DoD. Further details are available on request.



                                            5
Management Control Program Review

DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996, and
DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
August 28, 1996, require DoD organizations to implement a comprehensive system of
management controls that provides reasonable assurance that programs are operating as
intended and to evaluate the adequacy of the controls.

Scope of the Review of the Management Control Program. We evaluated the
management control process to determine whether equipment was effectively being
provided to the National Guard and Reserve. We analyzed and compared each
Service’s funding process to determine whether one was more effective than another.
However, we could not obtain data concerning expenditures from the Service
headquarters. This data was received from the various item managers and program
offices.

Adequacy of Management Controls. Reserve Components’ management controls
were adequate in that we identified no material management control weaknesses.

Prior Coverage
During the last 5 years, the Inspector General, DoD, has issued two reports discussing
procurement for the National Guard and Reserves. Unrestricted Inspector General,
DoD, reports can be accessed at http://www.dodig.osd.mil/audit/reports.

Inspector General, DoD

Inspector General, DoD, Report No. D-98-020, “Supportability Issue for the National
Guard and Reserves,” November 10, 1997

Inspector General, DoD, Report No. D-97-127, “Supportability Planning for Systems
Provided to the Army Reserve,” April 14, 1997




                                           6
________________________________________________________________________

Appendix B. Systems Reviewed
                                                          Funds Expended for
System                                           Amount   Reserve Components

Army National Guard
UH-60 Black Hawk Helicopter             $385.1                 Yes
Kiowa Warrior Helicopter                 271.9                 No
Avenger Air Defense System               124.6                 No
Multiple Launch Rocket System            116.0                 Yes
Howitzer/155 MM M109A6 (Paladin)         194.3                 Yes
Field Artillery Ammo Support Vehicle       97.5                Yes
Bradley                                    83.0                Yes
Heavy Equipment Transporter System       120.1                 Yes
Truck, Palletized Load System             38.9                 Yes
Heavy Expanded Mobility Tactical Trucks    11.6                Yes
Truck, Tractor and Support                 50.1                Yes
SINCGARS1                                273.4                 Yes
RCAS2                                    298.0                 Yes
Sentinel                                 109.3                 Yes

Army Reserve
SINCGARS1                                        104.0          Yes
RCAS2                                            158.0          Yes
Truck, Tractor, Line Haul                         41.0          Yes
Truck, Palletized Load System                     13.8          Yes
Heavy Equipment Transporter System                16.3          Yes

Air Force Reserve
A-10                                              23.3          Yes
F-16                                              43.9          Yes
C-5                                               93.7          Yes
C-141                                            154.5          Yes
C-130                                            109.0          Yes
C-135                                            144.7          Yes

Air National Guard
A-10                                              47.1          Yes
F-16                                             217.9          Yes
C-5                                               35.8          Yes
C-141                                             63.1          Yes
C-130                                            175.7          Yes
C-135                                            346.9          Yes

Total                                        $3,962.5
1
    Single Channel Ground-Air Radio System
2
    Reserve Component Automation System




                                             7
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Deputy Secretary of Defense for Reserve Affairs (Materiel and Facilities)


Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                           8
________________________________________________________________________




      Audit Team Members

      The Acquisition Management Directorate, Office of the Assistant Inspector
      General for Auditing, DoD, prepared this report.

            Thomas F. Gimble
            Mary L. Ugone
            Raymond A. Spencer
            Michael E. Simpson
            Ronald L. Nickens
            George A. Leighton
            Carrie J. Gravely
            Alquinton Wiggins
            Quincy T. Torregano
